       ..




 Department of Health and Human Servces
         OFFICE OF
    INSPECTOR GENERAL




NATIONAL PRACTITIONER DATA BANK:
     MALPRACTICE REPORTING
         REQUIREMENTS




                 SERV/Cts


                            Richard P. Kusserow
                            INSPECTOR GENERAL
            .(h'Iod3a
                                OEI-OI- 90-00521
                          EXECUTIVE SUMMAR Y

  PUROSE
  The purpose of this study is to examine the impact of proposed changes to the
  malpractice reporting requirements for the National Practitioner Data Bank.

  BACKGROUN
  Since September 1 , 1990 , the National Practitioner Data Bank has received and
  maintained records of malpractice judgments and disciplinary actions against licensed
  health care practitioners. It provides hospitals and other health care entities with
  information relating to the professional competence and conduct of physicians
  dentists , and other health care practitioners.

  Debate continues about the type of malpractice actions that should be reported to the
  Data Bank. Currently, all malpractice payments must be reported , regardless of
  amount. Some               organizations feel that reports should be limited to payments above a
  certain floor--perhaps $30 000 or $50 000. Payments under this floor , they believe
  most likely represent the efforts of practitioners or insurers to settle " nuisance suits
  are not evidence of actual malpractice ,              and present an unnecessary burden for
  reporters. In contrast ,               some believe that the current reporting mandates should be
  extended to include all open malpractice claims. They argue that claims , though not
  in themselves evidence of malpractice , are more timely and therefore more useful than
  payments alone in assessing practitioners ' records. (In practice , an open claim
  reporting requirement would almost certainly be accompanied by a                  closed   claim
  reporting requirement to be fair to practitioners named in malpractice suits who were
  eventually exonerated.

 Congress instructed the Public Health Servce (PHS) to prepare a report on the
 advisability of imposing a floor and of adding open claims to the Data Bank. The
 PHS requested Office of Inspector General (DIG) assistance in surveying two classes
 of interested parties: (1) licensing boards in States with reporting requirements similar
 to those under consideration for the Data Bank and (2) malpractice insurers. Our
 discussion is based on written responses to a mail survey from 62 malpractice insurers
 telephone interviews with high- level officials of 6 State medical boards (3 of which
. require open claims reporting and 3 of which require paid claims reporting above a

 dollar threshold), and data we collected for a related study on the Data Bank.

 FIINGS
                                         REQUIRING OPEN CLAIM REPORTS


 Requig that open milpractice claim be reported to the Data Bank coul ad over
 125, 00 hour to inurers ' annual paperwork burden--an increase of at least 580 percent.
       For every claim insurers paid in the last year , they opened 3. 56 claims and
       closed 2. 23 claims without payment.

       An open claims reporting requirement could increase the insurance industry
       annual reporting work load from just over 20 000 to almost 150 000 hours.

In th three States sueyed report of open milpractie claim do not in thelves
usll    signif vilatins of mecal practice cod, but are somehat usef to        meal
board in th aggegate or as supplemetal informtin.



       In Iowa , Texas , and New York, open claim reports rarely lead to disciplinary
       actions against physicians.


       In these States , open claim reports are used as supplemental information to a
       broader investigation or for research purposes.

                          IMPOSING A REPORTING FLOOR

A reportg flor woul signifcantly reduce the nwnber of report forwarde to Data Bank
quri.
       A $50 000 floor would have eliminated nearly half of the malpractice reports
       sent to Data Bank queriers. A $30 000 floor would have eliminated 38 percent.

A reportg floor coul affect the milpractice claim settlement proes.

       Several insurers believe that a floor would make practitioners more receptive to
       settling small claims.

       Some insurers noted that the allocation of large payments among multiple
       practitioners could be manipulated to prevent reporting.

Th
     exrinces of the three sueyed States with reportg    flors iItrate tht flrs have
potentil drawback.


       New Jersey recently repealed its floor in response to concerns about its impact.

       Ohio stil has a reporting floor , but its medical board has found Data Bank
       reports of malpractice payments under the State floor worth investigating.

       Malpractice payments in California are often made for one dollar less than the
       State reporting floor.
CONCLUSION€

Based on th informtin we received    frm
                                     milpractice       iners
                                                         State       meal board
and th Data Bank we conclu that the potentil drawbacks of reportg        ope claim or
impog a reportg floor     outweigh the potentil   ben.€
The reporting of open claims would lead to a significant time and cost increase for the€
malpractice insurance industry. A requirement to that effect would be unpopular with€
insurers , and our interviews with State licensing boards suggest that open claim€
information on individual practitioners has limited utilty.€

A floor on malpractice payments would certainly ease the reporting burden for
insurers and might reduce litigation costs by encouraging settlements. On the other
hand , it could lead to distortion and misrepresentation in the settlement process and
could prevent valuable information sharing.

We offer these findings to the Public Health Service as it summarizes its research and€
formulates its recommendations to Congress. However , because our inspection was
limited in scope , we cannot offer a definitive recommendation as to whether or not to
change the Data Bank reporting requirements. Additional information , such as the
predictive value of open claims and small payments and the overall distribution of
malpractice payment amounts , is needed to make such an assessment. We anticipate
that PHS wil consider such issues before making its recommendations to Congress.
                                                                                  . .. . .. . .. . . .. .. . . .. .. .. . .. . .. .. .. .. . .. . ...
                                                                                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




                                                                              TABLE OF CONTENTS€
                                                                                                                                                               PAGE€

 EXECUTIVE SUMMAY€

 INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                        . . . . . . . . . . . .. 1€
FINDINGS. . . . . . . . . . .                                                                                                                         . . . . . . . . 3€
                                         Requiring Open Claim Reports. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3€

                                         Imposing a Reporting Floor.                                                                                               . . . 5



CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8€

APPENDICES€

A. METHODOLOGY. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. .. .. .€
                                                                                      . . . . . . A-€
B. NOTES. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . €
                                                                                                                          . . . . . . . . . . . . . . . . . . .. B-€
                           INTRODUCTION€
 PUROSE
 The purpose of this study is to examine the impact of proposed changes to the
 malpractice reporting requirements for the National Practitioner Data Bank.

 BACKGROUN
 The National Practitioner Data Bank maintains records of malpractice judgments and
 disciplinary actions against licensed health care practitioners. It   was established by
 Title IV of the Health Care Quality Improvement Act of 1986,1         and has been in
 operation since September 1 , 1990. The Data Bank provides hospitals and other
 health care entities with information relating to the professional competence and
 conduct of physicians , dentists , and other health care practitioners. It is intended to
 be an important (but not the only) tool in the practitioner assessment process. The
 Data Bank is funded by user fees and Federal outlays. It is administered by Unisys
 Corporation under contract to the Health Resources and Servces Administration
 (HRSA) of the Public Health Service (PHS).

 State licensing boards , hospitals and other health care entities , and professional
 societies submit reports of adverse actions against practitioners to the Data Bank.
 These groups must report actions against physicians and dentists and may report
 actions against other licensed practitioners. Malpractice insurers must report
 payments made on behalf of alJ licensed practitioners.

 Data Bank records may be released only to authorized entities , including hospitals and
 other health care entities , State licensing boards , professional societies , and , under
 specified conditions , plaintiffs ' attorneys in malpractice suits. Also , practitioners may
 request their own records. Only hospitals are required by law to query the Data Bank.
 They must request records for practitioners wishing to obtain clinical privileges and
 every two years , for all practitioners on staff.

 Debate continues about the type of malpractice actions that should be reported to the
 Data Bank. Currently, all malpractice payments must be reported , regardless of
. amount. Some observers feel that reports should be limited to payments above a
 certain floor. The American Medical Association (AMA) has suggested a $30 000
 floor , and the Physicians Insurance Association of America (PIAA) has proposed one
 of $50 000. Payments under this floor , they believe , most likely represent the efforts
 of practitioners or insurers to settle " nuisance suits. " Such payments , they claim , are
 not evidence of actual malpractice and present an unnecessary burden for reporters.

 In contrast , some believe that the current reporting mandates should be extended to
 include alJ open malpractice claims. They argue that claims , though not in themselves
 evidence of malpractice , are more timely and therefore more useful than payments
  alone in assessing practitioners ' records. (In practice , an open claim reporting
  requirement would almost certainly be accompanied by a €                       closed    claim reporting
  requirement. In other words ,                       each claim would be reported at least twce--once at
  opening, once at closing, and perhaps at other key junctures in between. An open
  claim reporting requirement without a closed claim reporting requirement would be
  unfair to practitioners named in malpractice suits who were eventually exonerated.

  Congress instructed PHS to prepare a report on the advisabilty of imposing a floor
  and of adding open claims to the Data Bank. The PHS requested OIG assistance in
  surveying two classes of interested parties: (1) licensing boards in States with reporting
  requirements similar to those under consideration for the Data Bank and
  (2) malpractice insurers. SpecificalJy, PHS asked (1) what the current reporting
  burden on malpractice insurers is and how it would be affected by a change in
  reporting requirements , and (2) what lessons can be learned from States that currently
  require open claim reporting or have had reporting floors.

  METIODOLOGY

 To assess the potential change in reporting burden for insurers , we mailed
 questionnaires to 220 companies which are authorized to report malpractice payments
 to the Data Bank. We describe our methods for selecting these companies in
 appendix A. We received 81 responses , 19 of which we disregarded because they
 came from companies that had paid fewer than 5 malpractice claims over a recent 12-
 month period. We believe that these 19 companies would not have sufficient
 experience in reporting to the Data Bank to provide accurate estimates of the
 associated reporting burden. The remaining 62 insurers account for about 90 percent
 of the country s malpractice claim activity.

  To learn from States ' experiences with alternative reporting requirements , we
  conducted telephone interviews with high- level officials from medical licensing boards
  in six States. Using the Federation of State Medical Boards Exchange and brief
  confirmation telephone calls to State boards , we identified 15 boards that receive
  reports of open claims and 7 boards that receive reports only on payments above a
  specified floor. 6 From the list of boards receiving open claim reports we chose Iowa
  New York , and Texas on the basis of State size and geographic diversity. From the
  list of boards in States with reporting floors , we chose California , New Jersey, and
. Ohio because their floors were the highest (and therefore closest to the floors
  suggested for the Data Bank).

 We also analyzed Data Bank records that we obtained for a related study.                             These
 records consisted of all Data Bank matches through March 19 ,                            1992.€


 Our review was conducted in accordance with the €                       IIIerim SIUlldards for Inspeclioll€
 issued by the President's Council on Integrity and Efficiency.
                                   FINDINGS€
                         REQUIRING OPEN CLAIM REPORTS€

Reqg tht open mi/practice claim be reported to th            Data Bank coul     ad over
125 00 hour to iners '      annl paperwork burden--an inrease of at least 580 peen
       For every claim insurers paid in the past year , they opened 3. 56 claims and
       closed 2. 23 claims without payment.

The 61 insurers who responded to our survey question paid a combined total of€
   648 claims on behalf of individual licensed practitioners during a recent 12-month
period. At the same time , they opened files on a combined total of 52 105 claims.
This yields an opened- to-paid- claims ratio of 3. 56: 1.10 The ratio was higher for
physicians than for other types of practitioners: 3. 83 for physicians , 2. 66 for dentists
and 2. 73 for other practitioners. Also during this 12-month period , insurers closed
   693 claims without payment. For closed claims the unpaid- to- paid ratio was 2.€
overall , 2.48 for physicians , 1.25 for dentists , and 1.74 for other practitioners.€

       An open claims reporting requirement could increase the insurance industry€
       annual reporting work load from just over 20 000 to almost 150 000 hours.€

Over its first 447 days of operation , the Data Bank received 19 897 malpractice
payment reports,1 This is equivalent to 16 247 reports per year. At 3. 56 opened
claims per paid claim , an open/closed claim reporting requirement would add 57 839
reports of open claims and 36 231 reports of unpaid closed claims annuaIJy.         This
increase of 94 070 reports would bring the annual total to 110 317 reports.

Insurers told us they require an average of 80 minutes to complete each Data Bank€
malpractice report form. On average , they require 40 minutes for gathering
information , 22 minutes for tying and mailing the form , and 17 minutes for reviewing
and correcting the verification documents sent back to them by the Data Bank. 13 At
80 minutes per form , 16 247 reports would take 21 663 hours to complete. In contrast
110 317 reports would require 147 089 hours. 14 The 125 426 hour difference
represents a 579 percent increaseY€

In the three States sueyed, report of open mi/practice claim do not in thmselves
usll   signif violatins of meical practice codes, but are somewhat useful to meal
boards in the aggegate or as supplemental informtion.

       In Iowa , Texas , and New York , open claim reports rarely lead to disciplinary
       actions against physicians.


The Iowa board received 181 open claim reports in 1990. Of those , 51 (28 percent)
were referred to the board' s Discipline Committee for further investigation. None of
those referrals ended in disciplinary action. An official there told us , however , that in
previous years there have been disciplinary actions taken in cases that arose from
malpractice claim reports.

The Texas board began about 130 investigations based on open claim reports from
September 1990 through August 1991. Seven or eight of these (6 percent) resulted in
disciplinary actions.€


The New York board reported that no open c1aim reports resulted in disciplinary
actions because they are not used to open investigations. The official we intervewed
noted , however , that many doctors against whom actions were taken did have
 significant" malpractice claim histories.

       In these States ,
                       open c1aim reports are used as supplemental information to a
       broader investigation or for research purposes.

The Iowa State Board of Medical Examiners follows up on each open claim report it
receives from the State s insurance commission. Once it has received a more
complete description of the event , it can choose to pursue or drop the investigation.
The board officiaJ we interviewed believes that open c1aim reports have a role in
protecting the public but acknowledges that most reports are without merit.
predicts that the board wil have to adopt a screening mechanism to weed out open
c1aim reports that are not worth pursuing at all. He feels it is too early in the Data
Bank' s life to recommend whether to add an open c1aim      reporting requirement.


The New York State Board of Professional Medical Conduct has the authority to
begin investigations of physicians against whom several malpractice claims have been
opened. In practice , however, it does not. Instead , it adds reports of open claims to
its comprehensive research-oriented data base. When the board initiates
investigation on other grounds , it retrieves the subject physician s c1aims history from
the data base to create a more complete historical file. A high- Jevel board official did
not recommend that the Data Bank begin collecting open c1aim information because
(1) open claims are not necessarily indicative of poor practice , and (2) the Data Bank
might not be able to accommodate the additional influx of information.

The Texas State Board of Medical Examiners is likely to begin an investigation
whenever three or more claims are opened against a physician in a five- year period.
It also uses open claim reports for research purposes. Although the board official we
interviewed finds the open c1aim reports useful enough as supplementary information
to justify the effort of collecting and storing them , she considers them " not terribly
useful. . . about a 4 on a scale of 1 to 10. " She feels that an open claim requirement
for the Data Bank is unnecessary because doctors are generally required to report
their malpractice claims histories to hospitals anyway. She believes that doctors who
lie about their histories are likely to be discovered through sources other than the
Data Bank.€
                            IMPOSING A REPORTING FLOOR€

 A reportg flr woul signifcantly reduce the nwner of report forward to Data Bank
 qurs.
        A $50 000 floor would have eliminated nearly half of the malpractice reports
        sent to Data Bank queriers. A $30 000 floor would have eliminated 38 percent.

 When a hospital , licensing board , or other health care entity requests information on a
 certain practitioner from the Data Bank , and that practitioner has been reported to
 the Data Bank , it is referred to as a " match. " As of March 19 , 1992, there had been a
 total of 20 954 matches , 16 962 of which involved single malpractice payment
 reportsY

 The average amount of malpractice payments involved in a match was $132 358 , but
 most matches invoJved payments far below this mean. Had the Data Bank adopted
 AM' s suggested floor of $30 000 , 37. 9 percent of the malpractice matches would not
 have occurred because the malpractice payments wouJd not have been reported. The
 PIA' s proposed floor of $50 000 wouJd have eliminated another 8. 9 percent of
 malpractice matches.

 The usefulness to queriers of matches on small payment reports or any other tye of
 report is not yet known. We intend to address this question in a forthcoming report.

 A reportg flr   coul affect the malpractice claim settlement proces.

        Several insurers believe that a floor would make practitioners more receptive to
        settling small claims.

 Small malpractice claims can often cost more to litigate than to pay outright. 18 For
 this reason , it can be in an insurer s interest to settle small claims even when it
 believes it could win in court. Doctors , however , may have an incentive not to settle
 because settlements as well as judgments are reported to the Data Bank. Doctors
 may fear that Data Bank queriers wil interpret any report as a blemish on the
 doctor s record , and that queriers may not distinguish between claims that were settled
 for convenience as opposed to cause. Several insurers commented that doctors would
. be more wiling to settle small claims if the Data Bank had a floor and the claims did€
 not have to be reported.

        Some insurers noted that the allocation of large payments among multiple€
        practitioners could be manipulated to prevent reporting.€

 We asked insurers whether a floor for the Data Bank would affect the way they
 allocated payment amounts in cases where multiple practitioners were found liable for
 damages. Thirty-nine of the 55 respondents said " " and another 3 said " probably
 not. " But we also received several affirmative responses. The first two following
 comments came from companies with over 2 000 insured physicians each, and the third
 from a company that insures 3 500 registered nurses:

        Yes. When more than one practitioner is involved , we will be under pressure
        to have payments under the floor amount instead of true allocations.

        Yes. Many    physicians refuse to settle a case if it means that their name will be
        reported to yet another agency (in this case , the NPDB). Therefore , if a
        settlement opportunity exists among multiple defendants , and that settlement
        can be divided so that none of the defendants ' names would be reported (even
        if one defendant health care provider is more culpable than another), it is likely
        that the larger than floor dollar amount settlement would occur but                              not
        reported to the Data Bank. (emphasis in original)
        Possibly. If the amount is combined , and there is no definitive split between
        the facility and the practitioner , the decision probably would be made to
        allocate to the practitioner only that amount below the floor.

 Th
      exrinces of the three sueyed States with reportg                               flors iItrte tht flrs       hae
 potenl drawbacks.
 The impact of State-imposed reporting floors varies from State to State. Even in
 States with reporting floors , licensing boards are now notified of all their licensee
 malpractice payments , regardless of amount. Copies of all malpractice payment
 reports submitted by insurers to the Data Bank are automatically forwarded to the
 appropriate boards. The information contained in Data Bank reports , however, may
 not be equivalent to the information contained in State-mandated reports.

        New Jersey recently repealed its floor in response to concerns about its impact.

 The New Jersey State Board of Medical Examiners had a $25 000 reporting floor from
 July 1983 to January 1990. As part of a broad malpractice reform movement that
 year , the floor was eJiminated for two reasons. First , the board found that many
 doctors were settJing claims for $24 999 , which indicated that the settlement amount
 had more to do with the floor than the true value of damages involved. Second , the
 board was concerned that it would not find out about incompetent physicians who had
. many judgments or settlements for amounts less than the floor.

 No reports of malpractice payments have led to investigations                              or disciplinary actions
 against New Jersey physicians in the past year.                              The board official we spoke with
 beJieves that malpractice information is useful only as a supplement to a broader                               case
 file. Nevertheless , he advises against a floor for the Data Bank , saying that it is
 important to collect a full set of information.

        Ohio still has a reporting floor , but its medical board has found Data Bank
        reports of malpractice payments under the floor worth investigating.
  The Ohio legislature granted authority for the Ohio State Medical Board to collect€
  reports of malpractice payments over $25 000 in early 1987. This followed a survey of
  Ohio insurers that determined that payments under $25 000 often represented
  settlements designed to avoid litigation costs.

  In the State s fiscaJ year ending August 31 , 1991 , the board investigated 18 percent of
  reports it received on maJpractice payments over the floor. It also investigated
  9 percent of reports it received on malpractice payments                        under   the floor, which it
  received as copies of reports to the Data Bank. Two reports of payments over the
  floor led to disciplinary action , compared with none as yet for payments under the
  floor. Despite the low number of disciplinary actions , the board official we spoke with
  is convinced that maJpractice information is useful and worth collecting, regardless of
  payment amount. The fact that investigations had been started as a result of Data
  Bank reports of small payments led him to advise against a floor for the Data Bank.
  He was confident that the investigations would eventually lead to disciplinary actions.€

              Malpractice payments in California are frequently made for one dollar less than
              the State reporting floor.€

  The reporting floor in California is $30 000.
                                              Through March 19 , 1992 , 1 816 lump-sum
  malpractice payments by California physicians were involved in one or more matches
  between Data Bank reports and queries. Of those 1 816 payments , 176 (9. 7 percent)
  were for exactly $29 999. Another 21 were for amounts between $29 000 and $29 990.
  Only 17 , however , were for exactly $30 000. Clearly, part of the maJpractice claim
  settlement process in California involves avoiding reports to the State medical board.

  Whether a claim is settled for $29 999                     or $30   000 , however , is not of great concern to
  the medical board. We interviewed a high-ranking official of the California Board of
  Medical Quality Assurance who considers                       all   malpractice information minimally useful
  especially information on small payments. The board formally investigated 40 percent
 of all complaints and referrals it received in the last year , but only 11.5 percent of the
 maJpractice payments (all of which were for amounts of $30 000 or more). Because
 he believes that reports of small malpractice payments are of little use and create
 unnecessary processing work , the official recommended that the Data Bank adopt a
 reporting floor.

. At least two factors              minimize the utility of small malpractice payment reports to the
 California medical board. First , the board' s computer system does not keep complete
 records of malpractice payments. Second , the board is unable to use the copies of
 Data Bank reports on payments less than $30 000 because the reports do not include
 the patient's name. Without patient names , the board has great difficulty obtaining
 detailed information on the incident leading to the malpractice payment.
                              CONCLUSION€
 Based on th informtin we received from milpractice iners,        State   meal board
 and the Data Bank we conclue that the potentil drawbacks of reportg ope claim or
 imposig a reportg flr outeigh the potentil bene.

 The reporting of open claims would lead to a significant time and CQst     increase for the
 malpractice insurance industry. A requirement to that effect would be unpopular with
 insurers , and our intervews with State licensing boards suggest that open claim
 information on individual practitioners is only somewhat useful.

 The best argument for including open claim reports is that it could make the Data
 Bank a highly valuable research tool. The existence of a nationwide data base of€
 malpractice claim activity could be helpful to malpractice researchers and policy€
 makers. The Data Bank' s authorizing legislation indicates that Data Bank information€
  is intended to be used solely with respect to activities in the furtherance of the quality€
 of health care.
                 "20 Whether this mandate would include medical malpractice research€
 and whether the benefits of such research could justify the costs of collecting open
 claim information are unresolved questions.€

 A floor on malpractice payments would certainJy ease the reporting burden for€
 insurers and might reduce litigation costs by encouraging settlements. On the other
 hand , it could lead to distortion and misrepresentation in the settlement process and€
 could prevent valuable information sharing. The experience in New Jersey and€
 California and the comments of three large insurers indicate that reporting floors can€
 have unintentional effects on settlement amounts. Also , a floor would significantly
 reduce the frequency of Data Bank matches. Until it is known whether these matches€
 on sma)) payments are useful to queriers , an attempt to eliminate them would seem€
 premature.€

 We offer these findings to the Public Health Service as it summarizes its research and€
 formulates its recommendations to Congress. However , because our inspection was
 limited in scope , y.e cannot offer a definitive recommendation as to whether or not to
 change the Data Bank reporting requirements. Additional information , such as the
  predictive value of open claims and small payments and the overall distribution of
. malpractice payment amounts , is needed to make such an assessment. We anticipate
  that PHS wi1 consider such issues before making its recommendations to Congress.
                                   APPENDIX A

                                        METIODOLOGY

Surey of Malpractie Insurers

We selected the nation s 20 largest malpractice insurance writers as listed in
Healthweek magazine , October 21 , 1991 for our survey. We then obtained from the
Health Resources and Servces Administration a list of all non- Federal entities that
were authorized to report malpractice payments to the National Practitioner Data
Bank-- 056 companies or public agencies in all. We selected 100 companies at
random from this list , discarding from the sample any companies located outside U.S.
territory or whose parent organization was represented in the top 20. We mailed
questionnaires to all 120 companies on November 21 , 1991. Because our response
rate was inadequate as we neared the due date of December 20 , 1991, we selected
another 100 companies at random. This time , in addition to the disqualification
criteria above , we excluded companies whose titles contained the words " guaranty" or
 re- insurance. " We learned from our first sample that such companies usually do not
wrte malpractice insurance for individual practitioners. We mailed questionnaires to
this second group of 100 on December 18 , 1991.

As of our cutoff date of January 27 , 1992 , we had received 81 completed surveys
17 of which were from top 20 firms. We eliminated 19 respondents from the data
base because they reported closing fewer than 5 claims with payment over a recent
12-month period. We decided that these insurers did not have enough experience
with Data Bank reporting to make reasonable estimates of the burden it imposes.
(One respondent that was unable to report the number of claims paid was kept in the
data base because it insured nearly 5 000 physicians and 2 800 dentists. We believe
that a company with so many insureds would have enough experience with the Data
Bank to provide informed responses. ) Together , the remaining 62 firms insured the
following number of licensed health care practitioners:
        Physicians: 254 000
               Dentists: 88 500
               Other: 125 000
               TOTAL: 467 500

             Numbers have been rounded to the nearest 500 because several firms reported
approximations rather than exact counts. The number for other practitioners is
extremely conservative and consists largely of chiropractors and podiatrists insured by
firms who were able to provide an exact or approximate count. Many respondents
insure hospitals and alJ licensed health practitioners who work there. These firms
usually did not have a separate file for each hospital- based practitioner insured , and
therefore were not able to give us even an approximate count.
A total of 14 648 claims were paid by the 61 firms with such data available for the
12-month period. Based on the Data Bank' s first 447 calendar days of experience , it
receives 16 247 paid claim reports per year. Therefore , the insurers in our survey
represent about 90 percent of the malpractice claim activity in this country.

We made some adjustments to the written responses to improve logical consistency.
For example , we ensured that the respondents ' estimates of the total time required to
complete a Data Bank report was equaJ to the sum of the times they reported as
required for each step in the process.


Virtually all of the figures reported to us as the number of claims opened , closed , and
paid appeared to be actual counts rather than estimates-overy few ended in one or two
zeroes. We therefore treated each response in these categories as an exact amount.




                                         A - 2€
                                           APPENDIX B€
                                                       NOTE€
          L. 99- 660 ,       Sections 401- 432.

       Adverse actions include license revocation , suspension , and probation; clinical
       privilege revocation , suspension , reduction , restriction , and voluntary surrender;
       and professional society membership revocation , suspension , and denial; as well
       as other categories.


       Letter from the Chairman of the PIA Data Sharing Project to the Director of€
       the Bureau of Health Professions , HRSA, February 25 , 1991.€

       One of the 62 included insurers did not report the number of paid claims
       because it was unable to break down closed claims into paid and unpaid. This€
       insurer was included in our analysis because of the large number of€
       practitioners it insured and claims it opened. We believe it must have paid at
       least 5 claims over the 12-month period used for reporting.

       The Federation of State Medical Boards of the United States                       The€
                                                                                     , Inc.

       Exchange: Section              3,   Physician Licensing Boards and Physician Discipline , 1989-

       1990 ed. , pp. 34- 35.€

       Boards coJlecting open claim reports are in Arizona , Arkansas , Delaware , Iowa
       Kansas , Maine , Maryland , Michigan , Missouri , Montana , New Hampshire , New
       York , Oregon , Texas , and Wyoming. Boards that recently had or stil have
       reporting floors are in California , Louisiana , Nevada , New Jersey, Ohio
       Tennessee , and Washington. Since the Data Bank opened , these boards have
       also received copies of Data Bank reports on        claims paid by their licensees
                                                                     all

       regardless of amount.

       There may be discrepancies between State statutes and State practices. The
       lists of Sta tes above are based solely on telephone conversations with State
       board staff and the   Exchange.

. 7.   Office of Inspector General National Practitioner Data Bank: Profile of Matches€
       OEI- 01- 90- 00522 , in press.€

       A match occurs when a request for information from the Data Bank identifies a€
       practitioner for whom a report is on file with the Data Bank.€

       As stated above , 1 of the 62 insurers was unable to separate paid claims from
       unpaid closed claims and was excluded in the computation of this statistic.
       The 12-month period varied from insurer to insurer. One of the 62 did not
       report which period was used. All but 6 of the remaining 61 insurers included
       aJl or part of calendar year 1991 in their responses. The 12-month period
       began in December 1990 or January 1991 for 37 insurers.

10.    Malpractice claims general1y take years to close , so probably few if any of the
          640 opened claims were among the 14 648 paid claims. Our analyses assume
       no change from year to year in the rate of claim openings or the likelihood of
       claims closing with payment. If (as some have suggested) the existence of the
       Data Bank has discouraged settlements , then even fewer than 14 648 payments
       wiJl eventuaJly resuJt from the 52 640 claims opened during the 12-month
       period used.

11.€   OveraJl ratios are based on 61 insurers. Practitioner-specific ratios are based
       on 51 physician insurers , 23 dentist insurers , and 27 other practitioner insurers.

12.€   Unisys Corporation , Cumulative Data Bank Statistics Summary, presented to
       the Data Bank Executive Committee on December 5 , 1991 , p. 1. This number
       excludes initial reports that were later voided. The 447 days are calendar days
       not work days , and span from September 1 , 1990 , to November 22 , 1991.

       AIl time estimates are weighted averages. Individual estimates were weighted
       in proportion to the number of payments made during the reporting period.
       The sum of the average times required for each step in reporting is one minute
       less than the average time required for al1 steps combined. This difference
       most likely reflects the fact that 61 respondents estimated total time required
       but only 56 reported time required for each intermediate step.
14.€   In fact , the percentage increase in the work load resulting from a Data Bank
       open claim reporting requirement could be even greater , for two reasons.

       First , not aJl of the current 21 000 hour burden is solely attributable to the Data
       Bank. Malpractice insurers have to report payments to most State licensing
       boards as weJl as to the Data Bank. Insurers in our survey estimated that , on
       average        minutes of the time required to report a paid claim to the Data
       Bank also goes toward satisfying State reporting requirements (this average is
       weighted in proportion to the number of claims paid by each insurer and is
       based on 59 responses). Therefore ,   it could be said that the current Data Bank
       reporting burden is only 18 413 hours (16 247 . 68 -; 60). The 147 089 hours
       imposed by an open claim reporting requirement would therefore be an
       increase of 128 676 hours , or 699 percent. (Of course , in the States that
       currently require open claim reporting there would be some overlap with Data
       Bank reporting. Therefore , the 147 089 hour estimate is slightly high. There
       are far fewer States requiring open claim reporting, however , than paid claim
       reporting. )
         Second , open claims may take even longer to report than paid claims. The
         insurers estimated that open claims would require an average of 96 minutes to
         report (this average is weighted in proportion to the number of claims opened
         by each insurer and is based on 51 responses). If this estimate is accurate , and
         if unpaid closed claims took as long to report as paid claims , then an open
         claims reporting requirement would increase the work load to 159 263 hours
         (57 839 open claims at 96 minutes each , plus 36 231 unpaid claims at 80
         minutes each (assuming no overlap with State reporting requirements), plus
             247 paid claims at 68 minutes each). This is an increase of 765 percent.
         Again , the increase could be somewhat lower for those insurers whose State
         reporting requirements overlapped with Data Bank requirements.
  15.    Not surprisingly, there is virtually no support among insurers for an open claims
         reporting requirement. Fifty-eight of the 62 insurers in our survey were
         opposed to such a requirement. They objected to the burden it would impose
         on them and said that open claim information would be of little use to Data
         Bank users.

  16.    The board' s information system does not distinguish between open and closed
         claim reports. The figures presented in the text are based on the Assistant
         Director for Investigation  s estimates that 50 percent of the 261 claim reports
         resulting in investigations are open claim reports , and that 4 percent of the
         371 disciplinary actions resulted from cases initiated through the malpractice
         claim reporting system.€

  17.    For a more complete description of the types of practitioners , queriers , and
         reporters who were involved in matches , see Office of Inspector General
         National Practitioner Data Bank: Profile of Matches OEI- 01-90- 00522 , in press.

         Of the 18  521 total malpractice matches , 1 559 involved reports of the first in a
         series of multiple payments. For those matches , we were unable to determine
         the full amount of payment , and we excluded them from our analysis.
  18.         S. General Accounting Office Medical Malpractice: Characteritics of Claims
         Closed   in   j984 HRD- 87- , April 1987 ,   p. 22.


. 19.€   Eleven insurers made a comment to this effect as their primary or only reason
         for supporting a floor in response to one particular question. A number of
         other insurers made similar comments elsewhere in their written response.

         In response to our invitation for comments on the prospect of a floor for
         malpractice reporting to the Data Bank ,     37 of the 62 insurers in our analysis
         expressed a clear opinion. All but 1 of the 37 were in favor.     Several reasons
         were given in support of a floor , the most common being that it would relieve
         the burden on insurers , that small payments do not necessarily indicate poor
         care , and that it would encourage doctors to settle small claims.
20.   Health Care Quality Improvement Act of 1986 ,      section 427(b)(3).

21.   Although research is not mentioned specifically as a purpose of the Data Bank
      in the authorizing legislation , HRSA plans to release information to the public
       in a form which does not permit the identification of any particular health care
      entity, physician , dentist , or other health care practitioner Federal Regiter
                                                                  " (56

      13389). This tye   of   release is not yet underway.




                                          B-4
